No.

3n 4L'be

epupreme Court of tbe Einiteb iptatel
•
BARRY J. SMITH, SR.,
Petitioner,
V.
UNITED STATES OF AMERICA, ET AL.,
Respondents.

On Petition For A Writ Of Certiorari
To The Seventh Circuit Court Of Appeals

•
PETITION FOR A WRIT OF CERTIORARI

BARRY J. SMITH pro se
3124 W. Silver Spring Drive
Milwaukee, Wisconsin 53209
414-315-3913

RECEIVED
JUL 25 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

1

QUESTIONS PRESENTED
Amendment XIII [1865] Section I. Neither
slavery nor involuntary servitude, except as a punishment for crime whereof the party shall have been duly
convicted, shall exist within the United States, or any
place subject to their jurisdiction. 2. Congress shall
have power to enforce this article by appropriate legislation.
Does duly convicted include duly sentenced, and
did petitioner's Thirteenth Amendment enslavement
end when he discharged from his Thirteenth Amendment sentence?
In the Dred Scott case, the United States Supreme Court held that descendants of Africans who
were imported into this country, and sold as slaves,
were not included nor intended to be included under
the word "Citizens" in the Constitution, whether emancipated or not, and remained without rights or privileges except such as those which the government
might grant them. Dred Scott v. Sanford, 60 U.S. (19
How.) 393, 15 L.Ed. 691 (1857). Quoting Black's Law
Dictionary, Sixth Edition, page 343.
Does the Dred Scott case apply to petitioner, who
is a descendant of American slaves, after he has earned
his emancipation from Thirteenth Amendment slavery
by completely serving and discharging from his duly
pronounced Thirteenth Amendment judicial criminal
sentence?

QUESTIONS PRESENTED — Continued
3. Based upon the Court's answers to the above
two questions, does petitioner's complaint state a claim
upon which relief may be granted?

111

PARTIES TO THE PROCEEDING
Petitioner, Barry J. Smith Sr., was the plaintiff
in the district court proceedings and appellant in the
court of appeals proceedings. Respondents United
States of America, and the State of Wisconsin were
the defendants in the district court proceedings and appellees in the court of appeals proceedings.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED
PARTIES TO THE PROCEEDING

iii

TABLE OF CONTENTS

iv

TABLE OF AUTHORITIES
ORDERS BELOW
CONSTITUTIONAL PROVISIONS INVOLVED

1
1

STATEMENT OF JURISDICTION

1

STATEMENT OF THE CASE

2

REASON FOR GRANTING THE PETITION

3

CONCLUSION

3

APPENDIX
Order, United States Court of Appeals for the
App. 1
Seventh Circuit (January 17, 2019)
Decision and Order on Motions, United States
District Court, Eastern District of Wisconsin
App. 3
(June 26, 2018)
Decision and Order on Motions to Dismiss,
United States District Court, Eastern District
App. 8
of Wisconsin (January 29, 2018)
Order Denying Rehearing, United States Court
of Appeals for the Seventh Circuit (March 11,
App. 15
2019)
Civil Rights Complaint, United States District
App. 16
Court, Eastern District of Wisconsin

1
ORDERS BELOW
Trial court's decision and order dated January 29,
2018.
Trial court's decision and order dated June 26,
2018.
Appeals court order dated January 17, 2019.
Appeals court order dated March 11, 2019.
♦
STATEMENT OF JURISDICTION
On March 11, 2019 the Seventh Circuit court of
Appeals denied petitioner's petition for rehearing and
rehearing en banc filed on February 22, 2019. Copy of
order attached as exhibit C. This Court has jurisdiction
pursuant to Title 28 U.S.C. Section 1254(1).
♦

CONSTITUTIONAL PROVISIONS INVOLVED
The Fifth Amendment provides, in relevant part:
CC . . . nor shall any person be subject for the same offence to be twice put in jeopardy of life or limb, nor be
compelled in any criminal case to be a witness against
himself, nor be deprived of life, liberty, or property,
without due process of law. . . ."
The Thirteenth Amendment provides: Neither
slavery nor involuntary servitude, except as a punishment for crime whereof the party shall have been duly

2
convicted, shall exist within the United States, or any
place subject to their jurisdiction.
The Fourteenth Amendment provides: All persons
born or naturalized in the United States, and subject
to the jurisdiction thereof, are citizens of the United
States and of the State wherein they reside. No State
shall make or enforce any law which shall abridge the
privileges or immunities of citizens of the United
States; nor shall any State deprive any person of life,
liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal
protection of the laws.
♦

STATEMENT OF THE CASE
October 17, 2017 petitioner filed his civil rights
complaint in the United States District Court for the
Eastern District of Wisconsin. Complaint attached as
App. 16. In his complaint, petitioner stated that certain
of his citizenship rights were taken as punishment for
crimes of which he was convicted and sentenced according to the Thirteenth Amendment to the United
States Constitution; that he was completely discharged
from his judicially imposed Thirteenth Amendment
sentence to slavery, and that he is entitled to full benefit of United States of America Constitution guaranteed rights of citizenship. On January 29, 2018 the
trial court granted defendants' motions to dismiss
based upon their allegation that petitioner failed to
state a claim upon which relief may be granted. Trial

3
court's decision and order on motions to dismiss is attached as App. 8.

REASON. FOR GRANTING THE PETITION
The three questions presented herein have never
been presented to this Court. Your answers to these
three questions shall determine whether descendants
of American slaves, as an ethnic group, can expect the
fundamental fairness promised by the due process of
law clauses in the Fifth and Fourteenth Amendments
of the United States Constitution.
♦

CONCLUSION
For the foregoing reasons, this petition for a writ
of certiorari should be granted.
Dated: June 2, 2019.
Respectfully submitted,
BARRY J. SMITH pro se
3124 W. Silver Spring Drive
Milwaukee, Wisconsin 53209
414-315-3913

App. 1
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted December 21, 2018
Decided January 17, 2019
[SEAL]
Before
William J. Bauer, Circuit Judge
Michael S. Kanne, Circuit Judge
BARRY J. SMITH, SR.,
Plaintiff-Appellant,
No. 18-2408

v.

UNITED STATES OF
AMERICA, et al.,
Defendants-Appellees.

Appeal from the United
States District Court
for the Eastern District
of Wisconsin.
No. 2:17-cv-01419-DEJ
David E. Jones,
Magistrate Judge.

ORDER
The scope of our jurisdiction is limited to a review
of the district court's order of June 26, 2018. That order
denied Smith's motions to amend the complaint, for relief from the judgment, and to extend the time to appeal — the latter two motions having been filed on April
5, 2018, well after entry of judgment on January 30,
2018. The appeal — which was filed on June 28, 2018 —
is now fully briefed, and ready for decision.
We have carefully reviewed Smith's briefs — which
do not challenge the denial of the motion to extend
time to appeal — and those of appellees. Based on this

